<html>
<title> - REVIEW OF GAO'S ANNUAL DUPLICATION REPORT</title>
<body><pre>[Senate Hearing 116-58]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 116-58

               REVIEW OF GAO'S ANNUAL DUPLICATION REPORT

=======================================================================

                                HEARING

                               BEFORE THE
                               
                    SUBCOMMITTEE ON FEDERAL SPENDING
                   OVERSIGHT AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2019

                               __________

                  Available via http://www.govinfo.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                        
                        
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-697 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="13637c53706660677b767f633d707c7e3d">[email&#160;protected]</a>                   
                           
                        
                      
                        
                        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
               David M. Weinberg, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

  SUBCOMMITTEE ON FEDERAL SPENDING OVERSIGHT AND EMERGENCY MANAGEMENT

                     RAND PAUL, Kentucky, Chairman
RICK SCOTT, Florida                  MAGGIE HASSAN, New Hampshire
MICHAEL B. ENZI, Wyoming             KAMALA D. HARRIS, California
JOSH HAWLEY, Missouri                KRYSTEN SINEMA, Arizona
                      Greg McNeill, Staff Director
                  Harlan Geer, Minority Staff Director
                      Kate Kielceski, Chief Clerk
                           
                           
                           
                           C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Paul.................................................     1
    Senator Hassan...............................................     2
    Senator Enzi.................................................     8
    Senator Lankford.............................................    10
    Senator Scott................................................    13
    Senator Sinema...............................................    21
Prepared statement:
    Senator Paul.................................................    27
    Senator Hassan...............................................    29


                               WITNESSES
                         Tuesday, May 21, 2019

Hon. Gene L. Dodaro, Comptroller General of the United States, 
  U.S. Government Accountability Office; Accompanied by Thomas 
  Melito, International Affairs and Trade Team, U.S. Government 
  Accountability Office; and Melissa Emrey-Arras, Workforce and 
  Income Security Team, U.S. Government Accountability Office
    Testimony....................................................     4
    Prepared statement...........................................    30

 
               REVIEW OF GAO'S ANNUAL DUPLICATION REPORT

                              ----------                              


                         TUESDAY, MAY 21, 2019

                                 U.S. Senate,      
                        Subcommittee on Federal Spending,  
                    Oversight and Emergency Management,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:31 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Rand Paul, 
Chairman of the Subcommittee, presiding.
    Present: Senators Paul, Scott, Enzi, Hawley, Hassan, 
Sinema, and Lankford.

              OPENING STATEMENT OF SENATOR PAUL\1\

    Senator Paul. Good morning. I call this hearing of the 
Federal Spending Oversight Subcommittee to order.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Paul appears in the Appendix 
on page 27.
---------------------------------------------------------------------------
    Today we are going to hear from Comptroller General Gene 
Dodaro about the Government Accountability Office's (GAO) 
annual report on duplication, fragmentation, overlap, and other 
areas of savings.
    This is GAO's ninth duplication report, each shedding light 
on some truly troubling examples of waste. This report is no 
exception. For example, it is no secret that I have been 
critical of foreign assistance programs. I would encourage 
everyone to check out this Subcommittee's report ``World Wide 
Waste,'' which notes that the Federal Government continues to 
spend money on national parks in Russia, promoting Ultimate 
Frisbee in China, and paying for a clown college in Argentina, 
among other things.
    One of the questions I often get is, How do such things get 
approved, and how do they continue to get approved year after 
year after year? Part of it is because I think we do not pay 
attention to the duplication report that we get.
    This report gives us some of those answers. In it, GAO 
finds that we have 20 different agencies, pursuing 52 different 
foreign assistance strategies. This is a textbook recipe for 
waste, too many entities trying to do too much in too many 
different ways with too much money.
    Another area I have been critical of is federally funded 
research. We have done numerous waste reports and even held a 
hearing on the subject in October 2017. To my knowledge, we 
have never been critical of quantum computing or synthetic 
biological research. Nonetheless, GAO found six agencies 
funding quantum computing and 10 agencies funding synthetic 
biologics, with little coordination among the different 
agencies. If these seemingly merited areas of research are 
duplicative and uncoordinated, it is no wonder that we find 
studies of daydreaming and the optimal taste of tomatoes also 
being funded as well.
    I have highlighted a few other examples. The Department of 
Defense (DOD) has six different human resources (HR) services. 
Meanwhile, they rely on over 800 computer-based learning and 
training systems. As part of the Supplemental Nutrition 
Assistance Program (SNAP) program, the U.S. Department of 
Agriculture (USDA) spends $441 million on employment and 
training programs administered by States, which are required 
for certain recipients, yet these programs in only half the 
States are not able to report participation figures at all in 
these programs. We pay for these programs. We mandate that they 
do them, and then the States are not even really doing what 
they say they are supposed to be doing with the money. These 
are just a few highlights from this year's report.
    I am interested to see the progress we have made in 
correcting issues highlighted in earlier duplication reports, 
and I hope we act quickly to address the findings of this 
report.
    I am also very interested in preventing the creation of new 
duplication as well. Something I think that would go a long way 
in that regard is including in the Congressional Budget Office 
(CBO) cost estimates an assessment of the duplicative effects 
of the bills we consider. As we begin to consider new bills, 
maybe somebody should think, ``Wow. Are we already doing this? 
Are we just duplicating?'' because I think people are well-
intended. They just want to do something. There is public 
furor; let us do something. Yet nobody looks to see that we are 
already doing something about that issue, and we have not 
really considered the duplication.
    I think that we can go a long way toward getting this done, 
and I think it is something we can do in a bipartisan way as 
well.
    With that, I will recognize the Ranking Member, Senator 
Hassan, for her opening statement. Before I do, I just want to 
note this is Senator Hassan's first hearing as Ranking Member 
of this Subcommittee. I would like to welcome her in that role 
and say that I look forward to working with you.

             OPENING STATEMENT OF SENATOR HASSAN\1\

    Senator Hassan. Thank you very much, Chairman Paul, and 
thank you for the welcome. I am looking forward to working with 
you as well, and it is really wonderful to welcome our 
Comptroller General, Gene Dodaro, here to the Subcommittee 
today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Hassan appears in the 
Appendix on page 29,
---------------------------------------------------------------------------
    Today's hearing is my first as Ranking Member, and I am 
glad to work alongside Chairman Paul. I am particularly glad 
for this assignment because Granite Staters rightfully expect 
that their hard-earned taxpayer dollars will be spent wisely 
and effectively, and this Subcommittee's efforts are critical 
to helping ensure that happens.
    I look forward to working with the Chairman on bipartisan 
efforts to help spur innovation in government, ensure fiscal 
responsibility, and root out waste, fraud, and abuse.
    To that end, I am glad to have Comptroller General Dodaro 
here today to discuss the Government Accountability Office's 
2019 report on how we can reduce duplication in the Federal 
Government and save taxpayers billions of dollars.
    While it is not always easy to build consensus on cost-
saving measures, taking aim at Federal programs that are 
fragmented, overlapping, and duplicative should be an area of 
strong bipartisan agreement.
    GAO's report identifies dozens of new actions that Congress 
or Executive Branch agencies can take to improve efficiency, as 
well as previous recommendations that still need to be 
implemented.
    Congress and the Executive Branch have made real progress 
in acting on the recommendations from GAO's 2011-2018 reports, 
and some of those results have been impressive.
    According to GAO's estimates, we have seen roughly $262 
billion in financial benefits already. Obviously, there is 
still far more work to do.
    Mr. Dodaro, thank you again for being here. I look forward 
to hearing your testimony and continuing to work with you to 
strengthen oversight of taxpayer dollars.
    Thank you, Chairman Paul.
    Senator Paul. Thank you.
    Our witness today is U.S. Comptroller General Gene Dodaro 
who heads the Government Accountability Office, which produces 
this duplication report.
    Mr. Dodaro has been with the GAO for just a short time, 
right? [Laughter.]
    It says here 45 years. Congratulations on a career of 
serving government and trying to make government more efficient 
and better, including 9 years as Chief Operating Officer (COO), 
2 years as Acting Director, and the past 9 years as Director. 
That means he has overseen the duplication report since its 
inception in 2011.
    Mr. Dodaro holds a bachelor's degree in accounting from 
Lycoming College in Williamsport, Pennsylvania. He is a Fellow 
of the National Academy of Public Administration and a member 
of the Association of Government Accountants.
    Mr. Dodaro, you are recognized for your opening statement.

TESTIMONY OF HON. GENE L. DODARO,\1\ COMPTROLLER GENERAL OF THE 
     UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
 ACCOMPANIED BY THOMAS MELITO, INTERNATIONAL AFFAIRS AND TRADE 
TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; AND MELISSA EMREY-
  ARRAS, WORKFORCE AND INCOME SECURITY TEAM, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Dodaro. Thank you very much, Mr. Chairman, Ranking 
Member Hassan, Senators Enzi, Hawley, and Lankford. Nice to see 
everyone this morning. I appreciate the opportunity to talk 
about GAO's latest report on overlap, duplication, 
fragmentation, and other ways to realize cost savings and 
enhance revenues to the Federal Government.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dodaro appears in the Appendix on 
page 30.
---------------------------------------------------------------------------
    In our first eight reports, we made over 800 
recommendations for Congressional and Executive Branch action. 
Fifty-four percent have been implemented fully, another 23 
percent partially implemented. As Senator Hassan mentioned, 
there have been financial benefits realized of $262 billion 
already that either have accrued or will accrue as a result of 
implementation of the recommendations.
    Importantly, most of those real-dollar savings came from 
Congressional action in addition to some action on the part of 
the Executive Branch, but there are an additional 98 actions we 
are adding this year, recommendations in 28 different areas. 
There are still tens of billions of dollars in potential 
savings that could accrue from Congressional and Executive 
Branch action.
    For example, in this past year in the Defense Department 
alone, there is savings to be realized by looking at the 
functions providing human resources as the Chairman mentioned 
in his opening statement. Document services could save millions 
of dollars and also in consolidating the Administration of 
medical treatment facilities, additional savings are in the 
offing.
    DOD could make greater use of intergovernmental support 
agreements, where they are working with State and local 
governments to provide services to installations rather than 
using contractors. These have already saved money. Greater use 
of such agreements could save more.
    Also, right now in foreign military sales, the foreign 
purchasers of our military equipment are not paying for the 
full cost, the administrative cost of arranging the sale. As a 
result, the U.S. Government is paying the cost, but we think 
that the cost should be borne by the foreign purchaser.
    In the health care area, there are billions of dollars that 
could be saved here by having greater oversight over Medicaid 
spending and also in Medicare payment policies area, including 
preauthorization and place-of-service reimbursement that is 
different depending on where you receive the same potential 
service.
    There are savings that could be accrued at the Department 
of Homeland Security (DHS) and the Federal Emergency Management 
Agency (FEMA). There could be greater use and better use of 
advanced contracting to save money as well as post-contracting 
activities that could take place.
    The benchmark or litmus test of the Federal Government 
getting involved in a disaster has not been revisited since 
1986. For 33 years now, we have been using the same indicator. 
It has not been indexed fully for inflation, and as a result, 
we think the Federal Government may be paying more or getting 
involved more when the State and local governments have the 
capacity to deal with--obviously, these are not catastrophic 
disasters--smaller ones that occur on a more regular basis.
    There are many opportunities to have more efficient and 
effective government. The Chairman mentioned the alignment of 
strategies to provide foreign assistance. This could be done 
better.
    At DOD, there is not enough coordination in reporting and 
dealing with adverse medical events, particularly sentinel 
events that have led to unexpected deaths or very serious 
physical or mental problems. There are many other activities, 
including the one that the Chairman mentioned on better 
coordination of research activities in the Federal Government. 
Clearly, these research activities are important, but there 
needs to be better coordination to be more effective.
    Now, I was also asked to comment on what could be done to 
make it easier to identify these duplicative services in 
overlapping areas. We point out in our report the failure of 
the Office of Management and Budget (OMB) to produce a 
comprehensive inventory of Federal programs. This was required 
by the Congress in 2010, under the Government Performance and 
Results Act (GPRA). It still has not been done. Right now, we 
do not have a comprehensive Federal inventory, which makes it 
very difficult to provide oversight. We have to spend a lot of 
time and energy to identify these areas, and then I have other 
areas we could talk about more in the question and answer (Q&A) 
session.
    Thank you very much for the opportunity to talk about our 
work, and we look forward to working with this Committee, the 
Congress, and the Executive Branch moving forward to have a 
more efficient and effective government.
    Thank you, Mr. Chairman.
    Senator Paul. Thank you.
    I think we will start with Senator Hassan.
    Senator Hassan. Thank you, Mr. Chair, and again, thank you, 
Mr. Dodaro.
    There are a number of action items and recommendations GAO 
suggests that agencies can take to reduce waste, fraud, and 
abuse of taxpayer dollars, but Congress also, as you have just 
mentioned, has a role in helping address this issue.
    In your opinion, what areas recognized in this year's 
report would you prioritize for bipartisan Congressional action 
to mitigate waste, fraud, and abuse and promote fiscal 
responsibility across government?
    Mr. Dodaro. First, there are a handful of areas that 
Congress already has introduced legislative proposals that have 
bipartisan support.
    Senator Hassan. OK.
    Mr. Dodaro. For example, in the foreign military sales 
area, Representative Speier and other Congressional members 
have introduced a bill to deal with that issue. Members of this 
Committee have introduced a bill on a bipartisan basis to deal 
with implementation of our recommendations for advanced 
contracting on the FEMA area.
    There is a bill that already has been reported out of this 
Committee on improper payments and the payment integrity 
legislation that I would encourage Congress to pass that I 
think would have great benefit as well. There are a number of 
areas that already have bipartisan support.
    I find that when Congress really focuses on the 
efficiencies here--and a lot of these things are really still 
left to the policy judgments of the Congress----
    Senator Hassan. Yes.
    Mr. Dodaro. Everybody wants a more efficient and effective 
government. Nobody wants overlap and waste in the Federal 
Government, and that is why you have seen that 77 percent of 
our recommendations already have been fully or partially 
implemented.
    Most of what we are reporting this year, I think could 
garner bipartisan support.
    Senator Hassan. Great. Thank you.
    I want to talk a little bit about improper payments. In 
fiscal year (FY) 2018, GAO estimated that the Federal 
Government spent at least $151 billion in the form of improper 
payments.
    When I served as Governor of New Hampshire, our State's 
budget was about $11.5 billion. Now, granted, we are a small 
State, but the fact that the Federal Government issues improper 
payments totaling more than 10 times the entire New Hampshire 
State budget is really staggering and obviously unacceptable to 
all of us.
    To address this issue, I cosponsored the Stopping Improper 
Payments to Deceased People Act, and I was happy to see the 
bill pass out of this Committee last week.
    In this year's report, GAO recommends that the Office of 
Management and Budget issue guidance on how to identify and 
measure improper payments. It concerns me that Federal agencies 
do not even have a grasp of the true magnitude of this problem, 
let alone how to fix it.
    If such guidance from the Office of Management and Budget 
is implemented, how would that ultimately help to reduce the 
amount of improper payments the government makes each year?
    Mr. Dodaro. There are two things that are not being done, 
at a minimum.
    Senator Hassan. Right.
    Mr. Dodaro. One is identifying the root cause of the 
problem. You need to get to the root cause of the problem, so 
that you have to try to prevent the payments from being made 
improperly in the first place. We are never going to see a 
great degree of progress because it is too hard to recoup these 
payments after they are identified.
    The guidance would help agencies better identify the risk 
factors that need to be involved and what are the root causes 
of the problem.
    Now, the $151 billion in my estimate is still understated.
    Senator Hassan. OK.
    Mr. Dodaro. There are not audits being done of the managed 
care portion of the Medicaid program, which is almost half of 
Medicaid spending. I think this is not a good idea.
    I have been working with the Centers for Medicare and 
Medicaid Studies (CMS) and OMB to try to get State auditors 
more involved in auditing the Medicaid program. I think that 
would be a very worthwhile investment and pay for itself.
    I think you could use auditors to audit the Medicaid 
program more, before the payments are made, not after the 
payments are made.
    Senator Hassan. Yes.
    Mr. Dodaro. CMS has been reluctant to ask Congress for that 
authority. I think Congress should give them that authority. It 
has been proven to be effective and more effective than 
auditing the payments in a post-payment status. There is a lot 
that could be done.
    The three areas that are the largest ones and I am really 
worried about are Medicare and Medicaid, which are the fastest-
growing Federal programs. Last year, improper payments were $36 
billion in Medicaid, $48 billion Medicare. Finally, the earned 
income tax credit (EITC).
    We have also recommended that the Congress give the 
Internal Revenue Service (IRS) the authority to regulate paid 
tax preparers to encourage them to have codes, even on paper 
returns, scannable codes to have a better electronic filing, 
and to reduce the filing requirement for W-2 information for 
employers, so that IRS gets more electronic data to compare 
ahead of time.
    There has been some legislation in this area, also 
bipartisan, that I would encourage the Congress to pass.
    Senator Hassan. Great. Thank you.
    In addition to this added guidance and the priorities and 
actions you just talked about, do you believe that passing our 
bill aiming to stop improper payments to deceased people would 
be helpful to start reducing the amount of money that the 
Federal Government incorrectly spends each year?
    Mr. Dodaro. Yes, definitely. It would implement one of our 
prior recommendations. So you will help our implementation rate 
go up as well.
    Senator Hassan. Oh, good. All right. Win-win.
    Mr. Dodaro. It just makes sense. The Social Security 
Administration (SSA) right now will not give to the Treasury 
Department the full Death Master File (DMF) to check against a 
``Do Not Pay'' list. It is kind of maddening, to be honest with 
you, but I think if Congress clarifies this, I think it would 
be extremely helpful.
    Senator Hassan. That is great.
    I want to touch on a couple other things, but given the 
time, why do not I yield back, and then if we have time for a 
second round, I will ask more questions. Thank you.
    Senator Paul. I think it is important, as Senator Hassan 
pointed out, we do have bipartisan support to quit paying dead 
people. [Laughter.]
    We finally have found something that we have complete 
common ground on.
    Government is so bad that even when we agree on it, we 
still, unfortunately, have been doing this for decades. We have 
to get better on it.
    I think we will go to Senator Enzi next.

               OPENING STATEMENT OF SENATOR ENZI

    Senator Enzi. Thank you, Mr. Chairman, Ranking Member, and 
thank you, Mr. Dodaro, for the presentations that you do. I am 
always impressed with them. I try to be at as many of them as I 
possibly can.
    You have testified before the Budget Committee several 
times and provided us with good information, and you have heard 
my frustration over how the President gives us a budget, but it 
is a different format than the Senate's budget, which is a 
different format than what the appropriators use, which is a 
different format than what the authorizers use because they are 
shredded into several different appropriations budgets.
    There is the Government Performance and Results Act and its 
modernization, and I am not sure that that follows the same 
format either.
    I am trying to figure out ways to make that a little more 
effective. That is probably what I heard when I first ran for 
office: Why do the government agencies not say what they are 
going to do and then show if they did it?
    Also, you turn out the reports, and we do not always follow 
them, and the agencies do not always follow them. Consequently, 
a lot of good advice goes by the wayside.
    Can you think of any way that we can provide incentive for 
these people to save and do these things? I mean, you get a lot 
of incentive if you give money away, but you do not get a lot 
of incentive if you take money away. Do you have any 
suggestions for us in that?
    Mr. Dodaro. Yes. I think it is very important that before 
the Congress consider incentives, it must address the lack of 
an inventory. Part of the problem is even the agencies cannot 
identify these opportunities for savings very efficiently 
because there is not this comprehensive program inventory.
    For example, Senator, when we first started this work, we 
found there were 82 programs on teacher quality spread across 
10 different Federal agencies. OMB would really be the only 
potential place to identify these things across government in 
addition to GAO, and they do not have the tools to be able to 
do this because there is no inventory.
    We have to go in and actually dig it out and identify them 
ourselves. We have found well over 150 Science, Technology, 
Engineering and Mathematics (STEM) programs and 43 different 
employment training programs spread across the government.
    Even the executive agencies, even if you gave them 
incentives, it is difficult for them to identify and act on 
these areas because they are cross-agency, and most of the big-
dollar savings require multiple agencies to agree. Getting them 
to agree is difficult.
    You really have to incentivize OMB to be able to lead 
within the Executive Branch in reducing these areas of 
deficiencies, but they do not have the full capacity to do 
these things. That is why the default comes to Congress. Unless 
the Congress acts and eliminates these programs, we are 
hampered along with everybody else.
    There are incentives. For example, in the information 
technology (IT) area Congress authorized agencies to set up 
working capital fund. If they save money in the information 
technology arena, they can reinvest it and have some of those 
savings back in the working capital fund.
    These things, though, require a fundamental shift in the 
culture of government. The culture of government is to spend 
money and to make payments as fast as possible, and that 
culture needs to change. Agencies need to be more careful in 
how they go about these activities.
    The only thing I found successful is rigorous congressional 
oversight and forcing the agencies to explain why they are not 
taking action on some of these recommendations.
    I was very pleased last year to see that Congress passed, 
for the first time, legislation requiring agencies to identify 
what they are doing to address open GAO recommendations in the 
budget submissions to Congress. That will start with the budget 
submissions next year. I think that is very helpful.
    Each year, I write to each agency in the Federal Government 
and identify open GAO recommendations. About 77 percent of our 
recommendations get implemented, but not all, and so there are 
many more things that could be done to save money.
    It is hard to incentivize them and then hold them 
responsible when they do not have the tools necessary to be 
able to do this.
    The other frustration I have had concerns the Digital 
Accountability and Transparency Act (DATA) that Congress passed 
in 2014. This required the creation of standard account 
information. We found that the budget information was fairly 
accurate in reporting, but for the grants and contracts data, 
we found between zero and 1 percent of the information was 
fully accurate when we checked it back to the original agency 
award records.
    It is problematic when you do not have good inventories, 
you do not have proper accounting on information that is 
accurate, and you do not have good cost information. The other 
area that you mentioned is evaluations.
    What we find in a lot of these programs is that they have 
never been evaluated to know whether they are successful or 
not. It is really incumbent on GAO or someone else to say these 
programs are not effective before they can be eliminated as 
opposed to the agencies having to prove that the program is 
effective and should be continued.
    That is my best advice. I know it is not an easy answer, 
but that has been my experience.
    Senator Enzi. You are actually saying that the GPRA 
Modernization Act is not working?
    Mr. Dodaro. Not the way it should be.
    Senator Enzi. I appreciate that, and I appreciate all those 
duplication numbers that you put out. I have been talking about 
all of the housing duplication that we have spread over 20 
agencies who do not coordinate with each other. Nobody sets 
goals. Nobody follows up on them, and consequently, the housing 
programs are not working, just to mention one of the ones that 
you have mentioned before. Every agency has financial literacy 
money, but it is not working with us.
    I will yield back the balance of my time. Thank you.
    Senator Paul. Senator Lankford?

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Chairman Paul, thank you very much.
    Gene, it is always great to see you again. Thanks for the 
work of you and your whole team. There are a lot of folks that 
are engaged in this research, and we appreciate very much what 
you are doing and the way you dig in. We ask questions, and you 
are digging it out to be able to find a way to be able to get a 
nonpartisan answer. That helps us.
    There are several areas that I want to be able to identify 
and be able to walk through. Let me start with a statement that 
you made. ``No comprehensive Federal inventory,'' I think is a 
statement that you made, and it is a major problem. You and I 
have talked about this several times, and a bipartisan, 
nonpartisan bill, in many ways, the Taxpayers Right-To-Know, 
passed unanimously in the House of Representatives now twice, I 
believe, and gets stuck here in the Senate for some odd reason 
every single time.
    Is a comprehensive inventory, needed, and what would that 
do to help your team be more efficient?
    Mr. Dodaro. It is absolutely needed. It would greatly help 
us to have that inventory. It would short-circuit our research. 
We could turn around things much more quickly if we had this 
inventory.
    It takes us literally months to identify the number of 
these related programs, across government, and then you have it 
only for a point in time.
    Senator Lankford. Right.
    Mr. Dodaro. The information is not available on an ongoing 
basis. Every time we have to go in and update it, we have to do 
it with very onerous procedures.
    Senator Lankford. The comment is made that the DATA Act 
already accomplishes all this. Why would we need a 
comprehensive inventory of Federal programs?
    Mr. Dodaro. Not so.
    Senator Lankford. OK.
    Mr. Dodaro. Not so. The DATA Act has not been fully 
implemented because the information is not accurate yet. We are 
looking at it again.
    It looks good, and it is nice, but when you go in and you 
check the accuracy of it, it is not.
    There are now standards. That has been partly successful. 
It is not being executed properly.
    Senator Lankford. This has been one of my great 
frustrations that the Taxpayers Right-To-Know should not be a 
partisan issue. It should be just let us get the information 
out; we can all see it. You can see it better; we can see it 
better.
    Right now, we ask your team to be able to go pull out some 
of these areas, and months later, after all of your research, 
you are able to pull it back. We should be able to do a quick 
search on that, and for some reason, there are some in the 
Senate who have literally told me they do not want that kind of 
information transparency out there. That if there is that level 
of transparency, then there is no telling what could happen.
    I have said, ``You are right.'' There is no telling what 
could happen if we could actually see what is actually 
happening and to be able to know what is actually out there. 
That would be helpful information to get.
    Mr. Dodaro. I have supported that legislation, passage of 
it in the past. I continue to remain convinced that it would be 
very helpful and successful. I think transparency is absolutely 
essential, and I actually think it will lead to better trust in 
government----
    Senator Lankford. I would say yes.
    Mr. Dodaro [continuing]. Because right now, nobody knows 
where the money is going. You do not know what you are getting 
for it in terms of results and the Taxpayers Right-To-Know Act 
would link the results to the spending and provide clear 
accountability to the officials.
    It would not only help GAO, as I was mentioning to Senator 
Enzi, but it would also help the agencies. It would help 
Congress, but importantly, it will empower the public and 
public interest groups and others to ask relevant questions.
    Senator Lankford. Right. I hear from agencies all the time. 
They do not want to start a duplicative effort either, but they 
do not know about it. They get encouragement to take on this 
project, and then they find out 3 years later, after they have 
done all the work, they are also working on something another 
agency is already working on. They would like the information 
as well.
    Let me bounce a couple other things. You mentioned an issue 
about identity theft, in the refund, theft with the IRS. This 
is something they have worked on intentionally on it, but you 
identified $1.6 billion that is actually paid out to 
fraudsters. Are there specific recommendations that you would 
encourage us to take on?
    Mr. Dodaro. Yes. One that we have in this year's report 
relates to paper IRS filings. There are still about 15 million 
or so, paper forms submitted to the IRS. They cannot scan them 
very quickly and then use them to be helpful. We recommended 
adding a barcode on the form that would be a requirement, that 
would be number one.
    Number two is to require more W-2s by employers to be filed 
electronically. Based on one of our recommendations in the 
past, Congress has moved the deadline for employers up earlier 
for 
W-2 reporting. That is what we found was a big problem earlier, 
and the amount of identity theft has come down considerably 
since Congress passed that legislation. This would go further 
and make more things electronic. It would be faster for IRS if 
you do this.
    Also, we think that IRS ought to take a little bit more 
time before it makes the refund payments to do matching and 
checking, and it has been proven by their own studies and by 
our studies that that would save hundreds of millions of 
dollars too.
    Senator Lankford. Right.
    One of the challenges that we face is that every time we 
step into some of these issues of whatever program that it may 
be, as soon as you talk about the program, you are immediately 
heartless because you want to talk about the program and 
efficiencies or inefficiencies in it.
    Let me talk about one of the heartless areas that your team 
brought up. You talked about SNAP and finding a way. Clearly, 
you do not want people in poverty to have access to food, 
clearly, because you are starting to talk about this program. 
What are your recommendations on SNAP, and what is it that you 
saw that might, could help get a better delivery to systems?
    Mr. Dodaro. Just to be clear, we do have a heart at the 
GAO. [Laughter.]
    Senator Lankford. Well, you know what? Just to be clear, 
those of us that want efficiencies also have a heart as well.
    Mr. Dodaro. I realize that.
    In this case, there are SNAP employment and training 
programs that actually help people get training so they can 
become self-sufficient, but what we found was slightly over 3.4 
percent of people with work requirements participated in the 
SNAP employment and training programs.
    As the Chairman mentioned, the Federal Government spends 
$441 million for training programs, but the requirement is that 
the training programs are supposed to be coordinated with 
already existing workforce development and training programs in 
the State.
    Three States decided, ``We are going to have our own,'' 
SNAP employment and training program, ``We are not going to 
rely on these.'' Twenty-four other States that we found in 
checking their records did not attest that they are using the 
State employment system.
    We are saying this is a coordination problem within the 
State, and that they should be coordinating properly. The 
Agriculture Department ought to make sure that the States are 
coordinating properly and the Federal Government is not funding 
activities that are not coordinated within the State because 
that way the government is not only duplicating at the Federal 
level, it is encouraging duplication at the State level. It is 
just not efficient.
    Senator Lankford. Right. Thank you.
    Mr. Dodaro. It is not helpful to help people get off the 
programs.
    Senator Lankford. No, it is not, and it is not helpful to 
be able to discourage people from work or encourage work 
without providing some kind of opportunity to be able to get 
some equipment.
    Mr. Dodaro. One other issue on the refund fraud issue is 
that we have encouraged Congress to give IRS the authority to 
regulate paid tax preparers.
    Our research there shows that paid tax preparers--these are 
not the enrolled ones that are already covered--have an error 
rate higher than when people prepare their own taxes. I think 
this is an area. IRS tried it. They were sued; they lost. They 
need congressional support. I think this area would be very 
effective in helping stem a lot of the problems in this area.
    Senator Lankford. Thank you, and thanks to all your team.
    Mr. Dodaro. You are welcome.
    Senator Paul. Thank you. Senator Scott.

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. Good morning. Thanks for what you do.
    I just finished 8 years as the Governor of Florida. We had 
a lot of disasters, and we had some horrible hurricanes. One of 
the things that surprised me was--and, by the way, who I worked 
with the most was, of course, FEMA, and they were really hard 
workers. The lady that runs the Southeast Grocery Check, I 
think, tries really hard and does a great job.
    I also worked a lot with the Corps of Engineers, and 
everybody tried to be helpful to us. There is nobody in the 
Federal Government that I saw that did not try to be helpful.
    I will give you a story--and I do not know if you have ever 
looked at it--that shocked me. We get hurricanes in Florida. 
One of the obligations that our counties have is pre-hurricane, 
they go out and contract with a debris pick-up group to get a 
contract for after a hurricane. It is a bid contract, and the 
price--I did not do those contracts myself, but what I was 
told, the price range was $7 to $8.50 a cubic yard.
    The first big hurricane that I had was Hurricane Irma, 
where we had a lot of debris, which was a year and a half ago. 
Right after it happened, I got all these people calling me and 
telling me I should turn the debris pick-up over to the Corps 
of Engineers.
    I never had this issue before, so we started looking into 
it. We looked at the pricing. To start out, the State would 
have to pay 12.5 percent, the counties paid 12.5 percent, and 
the Feds paid 75 percent for debris pick-up until you hit a 
certain threshold. For us, it was $2.7 billion of cost.
    If we turned it over to the Corps, step one is they told me 
that, immediately, the Feds would take care of 90 percent. I 
was only obligated for 5 and the counties for 5, so that seemed 
odd.
    Number two, we looked at the pricing. Do you know what the 
Corps' pricing was?
    Mr. Dodaro. High.
    Senator Scott. $72 a cubic yard, OK, $7 to $8.50 versus 
$72. More interesting, same company.
    Have you ever look at this? Because you would think the 
Federal Government would be better at contracting, right, than 
a local country, and we have a lot of small counties. How could 
the Feds be this much different?
    Mr. Dodaro. One of the other things we do is keep a list of 
the highest risk areas across the Federal Government for the 
Congress. I testified in March on that before this Committee.
    There are four contracting areas on the high-risk list: DOD 
contracting, which includes the Corps; the Department of Energy 
(DOE) contracting, National Aeronautics and Space 
Administration (NASA) contracting and a newly added area on 
Department of Veteran's Affairs. We have only taken one high-
risk contracting area off the list--Management of Inter-Agency 
Contracting in 2013. However, overall contracting continues to 
be a problem.
    There are problems with competition, and there are problems 
with setting the requirements. The Feds also would not do it 
based on local conditions necessarily. They would have a 
different sort of playing field.
    One of our recommendations this year is in the advanced 
contracting area, where FEMA's should be working with the 
States to have advanced contracts in place. What we found is 
they did not give guidance to their people on how to use the 
advanced contracts.
    In one case, for example, recently, instead of using 
advanced contracts for tarps, they did a post-contract award, 
which then failed because they did not have opportunities to 
check the performance and the capabilities of the contractor.
    Senator Scott. Based on the----
    Mr. Dodaro. Yes, based on that. They get the tarps in time.
    Senator Scott. There are all these rules afterwards.
    Mr. Dodaro. Yes, right. A lot of our recommendations, which 
includes a bill that the Senate now has taken up to implement 
our recommendations, would do this.
    Then they were not keeping the advanced contracts up to 
date. In 10 cases, when something happened, they had to use a 
bridge contract to extend the current contract rather than have 
a more competitive contract in place, and FEMA was missing 
about 70 contracting people. You do not have enough contracting 
workforce at the Federal level, which causes concern in a lot 
of areas.
    I think FEMA can do a lot better. We have never looked 
specifically at these things at the Corps, I would say, but I 
am just generally telling you about Federal contracting.
    Senator Scott. First off, it is not $10 million. It is a 
billion dollars.
    Mr. Dodaro. Yes.
    Senator Scott. I do not know if others--we are probably the 
worst State for this because of all the foliage and the 
hurricanes we get. It is a lot of money.
    How do we try to fix that? What would be the process?
    Mr. Dodaro. First of all, I am not sure the Federal 
Government should be involved in all of these activities as 
well.
    The way it works--and the Federal Government decides to get 
involved--is that there was criteria set in 1986 that there is 
a per capita income figure. You probably know this. It now is 
set at $1.50
    Senator Scott. That is how we get to the $2.7 billion.
    Mr. Dodaro. Yes, per capita.
    Senator Scott. Yes.
    Mr. Dodaro. Because of this, the Federal Government is 
spread too thin. It should not be involved in a lot of small 
events.
    We indexed it for inflation, and based on the index for 
inflation, there would be about 25 percent of these disasters, 
the Federal Government would not have been involved in. If it 
was indexed for growth and personal income since 1986, the 
Federal Government would not have been involved in.
    Senator Scott. Right, because it did not change the entire 
eight years as Governor.
    Mr. Dodaro. We have had an outstanding recommendation for 
years now that FEMA come up with better criteria to judge State 
and local capacity. Particularly since there are more frequent 
and more intense storms--FEMA is stretched too thin, and that 
involves the Corps. That involves a lot of the other actors at 
the Federal level at play here.
    Number one is sorting out these roles and responsibilities. 
Number one would be tremendously helpful in focusing on this, 
so the Federal Government is not spread too thin, and as a 
result, people hurry. They are not prepared as well as they 
could be prepared. That would be my number one recommendation.
    Number two would be to make sure they have the right people 
in place to carry out these activities. The Federal workforce, 
I am very concerned about. There are a lot of skills gaps. 
There is a lot of inattention to succession planning. You have 
a lot of impending retirements, and I think you are going to 
see more things that you would not want to see without 
attention to the workforce.
    Senator Paul. That is great. You ended up using the Corps, 
or you did not use the Corps?
    Senator Scott. No. Stop and just think about the numbers 
for the State.
    Senator Paul. Even at 10 percent, it was still going to be 
a bad deal.
    Senator Scott. Yes. They had a lot of former politicians 
that knew me that called me to get me to do it.
    Senator Paul. I think, Mr. Dodaro, part of the answer is 
that maybe the Federal Government should not be involved in 
every storm. That is one, but two, you got to fix the perverse 
incentive.
    Senator Scott. Oh, yes.
    Senator Paul. If you had not looked into this, you had a 
perverse incentive at first to say, well, gosh, only 10 
percent, because the Federal Government is free, because the 
Federal Government is going to pay 90 percent.
    I would make the point that this is the same sort of 
situation we had with Medicaid expansion. The Federal 
Government taxes you, and then they say, ``Well, do not you 
want to help poor people in your State?'' You say, ``Well, 
sure, I want to help poor people.'' Well, why do not we help 
all of them? Why do not we help everybody in the State? I am 
not paying for it. Then, eventually, you had to pay for some of 
the Medicaid, but if you paid zero, it was like it was free.
    Senator Scott. Right.
    Senator Paul. This is the problem, to my mind, of false 
federalism. If the Federal Government does the taxes and the 
States spend it, that is not federalism. federalism is you want 
a health care system, and you 20 percent of your people to be 
in Medicaid. Florida should raise the taxes.
    Senator Scott. We will figure it out too.
    Senator Paul. You will probably be better at it.
    This is the debate we had last year, at least among 
Republicans. Everybody wanted this, this Graham-Cassidy bill, 
to block-grant it back, and they said, ``Well, this is 
federalism.'' I said, that is not federalism. Federalism is 
each of the States tax the people for their health care system, 
and then they spend it. If we tax the people at the Federal 
level and then the States spend it, I do not think you have the 
same degree of cost, even though States are better than the 
Federal Government. You do not have the same incentive because 
you are not taxing people.
    Senator Scott. In my 8 years as Governor, we saw no per 
capita increase in Medicaid cost. Now, we did not do the 
expansion, but do you realize that New York per person, I 
think, on their basic Medicaid, because they did expansion, 
just basic Medicaid gets double what we get?
    Senator Paul. Right. That is when you look at the charts.
    Senator Scott. Is that true?
    Senator Hassan. I would just note--and we could all 
probably talk about this for the rest of the day. We did expand 
Medicaid in New Hampshire. One of the challenges is when you 
expand Medicaid, which I advocated for is really important for 
behavioral health and substance use disorder, among other 
things, and a lot of working families could not afford health 
care, and they could then afford health care.
    You have a pent-up demand for health care from people who 
have not had insurance for a long time.
    Senator Paul. Right.
    Senator Hassan. You have people who have underlying 
conditions that have not been treated for forever.
    Senator Paul. I do not think the argument that we are 
having or the discussion we are having is on whether or not 
there are people that are deserving of Medicaid. The argument 
is whether or not you should tax it at the Federal level and 
let the States expand it while the Federal Government pays for 
it because you do not have the same incentives to try to watch 
your expenses.
    I think you do more if--and I think this is true of all 
programs, though--is that if we want to fix this particular 
program with the Corps or with other programs, you have to get 
rid of perverse incentives. You have to have the punishment.
    Senator Hassan. Right.
    Senator Paul. If you want to expand Medicaid in New 
Hampshire, you will watch how much you expand it if you have to 
raise taxes on people in New Hampshire to pay for it.
    Senator Hassan. There are economies of scale and other 
things that a single State cannot achieve that the Federal 
Government can. There are arguments back and forth here, but I 
agree that there is work we could do in all of these areas.
    Senator Scott. To get off of something, Medicare and 
Medicaid is all controversial, so get off that for a second.
    Senator Hassan. Yes.
    Senator Scott. I think we all want people to get health 
care.
    Senator Hassan. Yes, right.
    Senator Scott. It is how do you do it in a manner that our 
taxpayers can afford it. Whether the State taxpayers are paying 
for it or the Federal taxpayers are paying for it, it is not 
free. Somebody is paying for it.
    Senator Paul. Right.
    Senator Scott. What I watched in the FEMA stuff--and let me 
tell you, they work their butts off. I love working with them.
    To a certain extent, it felt like it is ``let us make a 
deal.'' It would make it easier for them and for the States if 
they said this is exactly--I agree with what you said as far as 
you ought to look at what they ought to be involved in because 
it was surprising to me as a Governor what the Feds would be 
involved in. If it was real set, I think it would be easier.
    I will give you another story. Look, I am sure all these 
programs----
    Senator Hassan. You did not know you were getting into a 
debate on a number of things, did you? [Laughter.]
    Senator Scott. I am sure that all these programs are 
important programs, but after a disaster, different agencies 
give us money. Then we have to go propose a plan for it. Does 
somebody ever go back and say did we ever do what we said we 
were going to do?
    Senator Hassan. That is an excellent point, and that is 
something we tried to change.
    Senator Paul. Does anyone ever go back and say, if it was 
private insurance, would it have covered this disaster relief, 
and all of a sudden, FEMA came in and supplanted private 
insurance, who ends up making more profit because they did not 
actually have to pay out?
    Senator Hassan. Right.
    Senator Paul. Let us go back to the hearing. [Laughter.]
    One of the questions we mentioned in our opening was 
whether or not--when we have something, a new program, we have 
to get a CBO estimate on what it is going to cost--whether or 
not we could ask for a CBO estimate and a duplication estimate, 
and I guess the question is whether your agency could provide 
that because you have 9 years' worth of reports. I propose a 
bill to help mothers with one eye and 10 children to have 
something, and you say, ``Well, we already have 14 programs.'' 
Would there be a way that the GAO could actually score a piece 
of legislation to say whether it is a duplication or not?
    Mr. Dodaro. That would really have to be CBO rather than 
GAO.
    Senator Paul. It would come out of CBO. You could 
coordinate--right.
    Mr. Dodaro. Yes. Because they do all the scoring up front, 
and they are the official scorekeeper for the Congress on both 
revenues and the deficit, but also proposed legislation.
    Now, sometimes we will get asked about management issues 
and proposed legislation and things like that, but we do not 
actually score what the cost would be of implementing that 
legislation or whether there is duplication.
    What I would say is that you could have that conversation 
with CBO. They might be able to do something, but I suspect 
they are going to be hampered, just like we are, because there 
is no comprehensive Federal inventory. A lot of these programs, 
when you are getting into smaller programs, are within 
budgetary accounts. They are not very visible.
    Senator Paul. Our thinking was, yes, CBO would do it, but 
we would dictate to CBO that there is going to be a cost score 
and there is going to be an evaluation of duplication. CBO 
would then ask you, maybe it is not looking throughout all 
government but at least looking through 10 years of duplication 
reports to find what is most readily accessible and you say 
this is what we have from our duplication search because you 
have done--that is 10 years' worth of research that you have.
    Mr. Dodaro. Yes.
    Senator Paul. You have a big body of knowledge. Do you 
think that would be feasible, though, if we dictated CBO to say 
you have to give a duplication score, and then you would 
probably provide the information to them?
    Mr. Dodaro. Yes. Without speaking for CBO, because every 
year I testify with them before the Senate Appropriations 
Committee, and so I know their workload is a big issue. They 
have to turn things around really fast. I do not know what 
their view would be of that.
    What I would say for GAO, Mr. Chairman, we would be happy 
to help in any way we can to avoid the creation of programs 
that would be duplicative.
    The other thing I would say, it is very hard to prove exact 
duplication. That is why we cover overlap and fragmentation 
because they are harbingers of duplication.
    I think it is a worthy objective to try to stop adding to 
the duplication that we already have and overlap and 
fragmentation. I would be happy to have conversations with CBO 
to see if there is something that we could work with them on to 
support them.
    Senator Paul. You mentioned the earned income tax credit. 
There have been reports of as high as 25 percent fraud in the 
earned income tax credit and the child tax credit. From your 
looking at it, what would be the biggest reform to the 
different tax credits? I think you mentioned it, but go ahead 
and mention it again.
    Mr. Dodaro. Yes. The one thing I would say is that a lot of 
those people use paid tax preparers.
    We did and it is dated now a little bit, but----
    Senator Paul. Yours is more organized fraud, in a sense?
    Mr. Dodaro. It could be.
    I think they use them; there are more errors. We sent 
undercover teams into 19 tax preparer offices for tax advice 
and only 2 of the 19 gave us the right information.
    I think this is very important, and we found error rates 
based on looking at IRS data, about 60 percent error rate, with 
paid tax preparers versus people to do it themselves, only 50 
percent.
    Senator Paul. How is the fraud being committed? By 
overestimating your income or overstating your income?
    Mr. Dodaro. Or claiming more dependents than you have.
    Senator Paul. Right.
    Mr. Dodaro. It is very hard. The law itself is very 
complicated, and you have people with dependents who live with 
them portions of the year and live elsewhere other portions of 
the year. It is very complicated.
    Senator Paul. With the child tax credit, there were reports 
from a year ago--and I think we tried to fix this. I do not 
know if we did, but they were able to use generic taxpayer 
numbers and not Social Security numbers. People were claiming 
six kids that did not exist. The government would nicely 
generate a number for you, and you put it on the form. Do you 
know if we have fixed that problem?
    Mr. Dodaro. I do not know if we have looked at that. I will 
go back and check it.\1\
---------------------------------------------------------------------------
    \1\ Supplemental information GAO provided for the record. Yes, 
Public Law 115-97, commonly referred to as the Tax Cuts and Jobs Act 
(TCJA) contained a temporary fix. Prior to passage of TCJA, the Child 
Tax Credit (CTC) and the Additional Child Tax Credit (ACTC), could be 
claimed if a child was a U.S. citizen, national, or resident, and the 
taxpayer could file using either a Social Security Number (SSN) or an 
individual taxpayer identification number (ITIN) for the child. TCJA 
added subsection (h) to section 24 of the Tax Code governing the Child 
Tax Credit. Subsection (h) applies to tax years 2018 through 2025, and, 
in part disallows the credit for any taxpayer with a qualifying child 
unless the taxpayer includes the social security number of the child on 
the tax return. For purposes of this section, the SSN must be issued by 
SSA to a U.S. citizen and before the due date of the return.
---------------------------------------------------------------------------
    Senator Paul. That was more in the child tax credit. I 
think we had legislation on that. The legislation passed, 
right? Yes.
    One other issue, I was intrigued by the foreign military 
sales. Do you have an idea or does any of your team have an 
idea if it is a $500 million sale, like how big is the sales 
cost that you are talking about that we are eating percentage-
wise?
    Mr. Dodaro. Yes. They do not track the amount of cost, but 
what happens is the salaries of the military personnel that 
work on this and certain retirement benefits of the civilians 
that work on this are not charged at all.
    The last estimate we had was about $120 million that the 
United States was essentially subsidizing for these sales that 
could be recovered.
    I would say our best estimate at this point was tens of 
millions of dollars a year as being lost because the Federal 
Government is not fully charging the purchaser of this 
equipment, and this was done years ago by legislation because 
DOD was concerned that there was not enough sales activities, 
and people would be discouraged from purchasing the equipment--
U.S. allies and others.
    Senator Paul. When we make a foreign military sale, it is 
actually coming from the U.S. Government. There is a private 
contractor that makes the equipment, but they are actually not 
selling it to Saudi Arabia or another country? It actually goes 
from the Pentagon to Saudi Arabia?
    Mr. Dodaro. I believe so.
    I have my expert here in foreign military sales. Let me 
call him to the table. This is Tom Melito.
    Senator Paul. Thank you.
    Mr. Melito. There are direct commercial sales, which can go 
from the contractor directly to the overseas ally, but this is 
a program where the ally is asking for the United States' 
support in basically training and also preparing the equipment 
to transport and all that. They pay the United States for these 
services.
    In this case, as the Comptroller General was saying, we are 
providing some services for free, even though the law says it 
should be no cost to the U.S. Government.
    Senator Paul. These are not on sales that are going 
directly from the contractor to the country. These are on sales 
that are going from the Pentagon to the foreign country?
    Mr. Melito. Exactly.
    Senator Paul. There is a cost involved, and then there is 
profit being taken out, because still there is a contractor 
somewhere in the middle on these things?
    Mr. Melito. The country could decide not to pay for these 
services. That would be a direct commercial sale. If they 
decide to have the capacity to do this themselves, they can 
then just buy the equipment. Obviously, the military has to 
determine if they are allowed to buy it. Many countries decide 
that they want support in a number of ways. Then the United 
States charge them fees to provide that support.
    Senator Paul. Alright. I have no more questions. Senator 
Hassan.
    Senator Hassan. Thank you.
    I have one additional question, and I think I want to say 
for a second, as we think about our work over the next little 
while and the issue of FEMA and what that threshold should be, 
I would hope that we would think about threshold metrics that 
recognize that small States generally have disasters of smaller 
dollar value, but they could be a huge percentage of a local or 
State budget. I am sure there is a way to adjust metrics with 
that in mind, but that is my New Hampshire hat on here.
    I wanted to touch on another area in your report concerning 
Federal student loan default rates. GAO reports that as of June 
2018, borrowers were in default on $163 billion worth of 
Federal student loans.
    I was disturbed to read how some colleges and universities 
avoid accountability for unacceptably high student loan default 
rates by taking advantage of a loophole in the law.
    Right now, the law measures an institution's eligibility 
for Federal loan dollars by what is called the cohort default 
rate. Put simply, if more than 30 percent of a graduating class 
defaults on their loans within 3 years of graduation, the 
institution's eligibility for Federal loan dollars is cutoff.
    Instead of working to improve and help students avoid 
default, some colleges and universities choose to use their 
resources just to avoid accountability. They hire third-party 
consultants to convince students to postpone their payments, 
which for many means that they are just postponing inevitable 
defaults.
    For the schools, however, this means they can continue to 
receive financial aid dollars and mislead students who enroll, 
giving the students the false impression that the school 
actually provides quality education and will prepare them 
meaningfully for a career.
    My understanding is that GAO recommends that Congress 
change how the cohort default rate is calculated. Can you 
explain a bit more about this recommendation?
    Ms. Emrey-Arras. Yes. I would be happy to.
    Mr. Dodaro. Excuse me. This is Melissa Emrey-Arras. She is 
out expert in higher education.
    Senator Hassan. Welcome. Thank you.
    Ms. Emrey-Arras. Thank you.
    The current metric measures a 3-year time period and counts 
whether or not people default within that metric, within that 
time period. If they do and if the thresholds are high enough, 
a school can lose access to all of its Federal student aid 
money.
    As you point out, we found that schools were gaming the 
system by pushing students to go into a repayment status called 
forbearance which gets them out of risk of being in default, 
which helps the schools, but does not necessarily help the 
borrower or the Federal Government.
    Basically, the borrowers are then racking up interest, and 
it can accumulate to thousands of dollars in interest over that 
time period, and then we found that borrowers were defaulting 
after the measurement period in the fourth year when the 
schools were no longer held accountable.
    What we recommended was that Congress consider 
strengthening the metric to hold schools accountable by doing 
something to account for this issue of borrowers being put into 
forbearance, perhaps adding another metric to bolster the 
cohort default rate, perhaps something like a repayment metric 
or doing something different. We just thought that schools 
should be held accountable.
    Senator Hassan. Thank you.
    As I understand, your recommendation is that if you change 
the definition of the cohort default to take out the students 
who were in forbearance, we would save about $2.7 billion. Is 
that right?
    Ms. Emrey-Arras. We found in our analysis that over 260 
additional schools could lose access to Federal student aid if 
you took out that population that were in forbearance, and that 
that population of schools received $2.7 billion in Federal 
student aid during that time period.
    Senator Hassan. You just mentioned trying to move us away 
from solely using default rates to determine of an institution 
were able to receive Federal student aid dollars. Is there 
anything else you would like to say about what other kinds of--
because $2.7 billion is good, but we are talking about a huge 
amount of student debt and a huge amount of default, $163 
billion.
    Ms. Emrey-Arras. Right.
    One of the metrics that the Department of Education told us 
that is less susceptible to manipulation is this repayment rate 
metric.
    Senator Hassan. OK.
    Ms. Emrey-Arras. The repayment rate metric measures the 
percentage of borrowers who are not in default, who have also 
put at least $1 toward the original loan principal within the 
first 3 years. So you know that they are actually chipping away 
at that original principal.
    Senator Hassan. Thank you. That is very helpful, and that 
concludes my questions.
    Thank you, Mr. Chair.
    Senator Paul. Senator Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Mr. Chairman, and thank you, Mr. 
Dodaro, for being here today.
    Arizonans expect and demand a government that is efficient, 
effective, responsive, and transparent, and the GAO report 
helps Congress identify areas to improve efficiencies and 
eliminate redundancies within the Federal Government, and it 
helps us understand the progress or lack of progress in areas 
that the GAO has previously identified.
    GAO's work on the duplication report are important for 
everyone in Arizona who wants a better Federal Government.
    I am interested in some of the recommendations for the 
Departments of Defense and Veterans Affairs (VA). Men and women 
who serve in uniform made a commitment to protect our country, 
and in return, we promised to provide them with the best care 
and support. I intend to honor that promise.
    The report recommends that the Defense Health Agency 
improve how it tracks instances where patients are or could 
have been harmed. Understanding these events is very important 
to improving medical services and patient safety.
    Did GAO look at how other Federal health care providers 
like the VA or Indian Health Service track instances where 
patients are put at risk or harmed?
    Mr. Dodaro. No. We were focused on DOD at that time.
    Senator Sinema. There is no way, then to understand how 
DOD's tracking protocols compare to other Federal health care 
providers?
    Mr. Dodaro. There is a way to do it. We would be happy to 
take a look at doing that in the future, but for this 
particular engagement, we did not look at that. We were focused 
on DOD solely since it is such a large operation but what we 
found is that it is a pretty well-established practice when you 
have these sentinel events, which could cause an unexpected 
death or very serious or psychological problem that there be a 
root-cause analysis done of what the problem is and that it be 
coordinated.
    What we found is that they were doing the root-cause 
analysis, but within each service, and so it was a very 
stovepiped activity. Nobody had to look across the board to 
see, ``Are we having a systemic problem here? Is there 
something that we need to change?'' It is a fundamental, kind 
of analytical approach that is well established and used.
    What we found was about 9 percent of instances of harm were 
not even being entered in a system. They did not have a system. 
They would send this through emails and other things. It really 
was not organized properly.
    Senator Sinema. Thank you.
    What processes are in place to share information about 
these events and lessons that are learned across the health 
care provider agencies?
    Mr. Dodaro. Right now, each service keeps their own 
information, and then they try to share it. They are in a 
transition now where the Defense Health Agency is supposed to 
take over administration of a lot of the central management of 
DOD medical treatment facilities, but right now, they do not 
have a system that takes all the information from the services 
and then analyzes it. That is what we recommended that they do.
    Senator Sinema. My next question is about VA medical 
facility construction. Managing budgets for VA medical facility 
construction continues to be a real area of concern for 
Congress, and your report recognizes the need for improvement.
    Based on your analysis, does VA have the ability to 
identify construction needs prior to entering into a 
construction contract for medical facilities?
    Mr. Dodaro. Yes. That is a real interesting question, and I 
think with the implementation next month of the MISSION Act, 
which would allow for greater access to community care, it will 
be real interesting to see what the implications would be for 
VA facilities in the future. In other words, how many veterans 
are going to continue to use VA facilities as opposed to using 
community care facilities?
    There is a commission that will be created in order to 
identify long-term needs of the veterans, and from a facilities 
standpoint, that is just being organized right now, and it will 
be under way. We are going to look at how that is implemented 
over time.
    I am glad that the Congress required that, and that will 
help provide a focus to make sure these things are evaluated 
properly.
    We found that in a lot of cases in the past that the 
guidance that was coming from the central office, the people at 
the local level felt it was not really helpful to them. They 
were inventing their own guidance. As a result, you really do 
not have confidence in your ability to prioritize across the 
entire VA system, which you would need to do because you have 
limited budgetary resources.
    Those are our recommendations.
    Senator Sinema. Thank you.
    Has GAO's research identified whether other Federal health 
care provider agencies have more effective ways to identify 
their needs prior to entering into these construction 
contracts?
    Mr. Dodaro. No, we have not. We would be happy to take a 
look at that, though.
    Senator Sinema. I appreciate that.
    The GAO recommended that the Department of Health and Human 
Services (HHS) coordinate with other Federal agencies, 
including the VA, to improve the effectiveness of oversight for 
fragmented Federal funding for physician graduate medical 
education (GME).
    As you might know, Arizona suffers from physician shortages 
in nearly all of our counties, which leaves too many Arizonans 
without access to primary care doctors, mental health 
specialists, and it causes these unconscionable delays for our 
veterans.
    How will comprehensive reporting across programs help us 
better understand how many primary care physicians we need in 
Arizona versus how many pediatric specialists we need? Are 
there other areas within GME funding that you would recommend 
that coordination efforts be focused?
    Mr. Dodaro. First, I think the last estimate we had or 
number on this is that the Federal Government spends about 
$14.5 billion a year to support graduate medical education 
training, and it is really not clear what the result of that 
spending is. It is clear that better coordination is needed 
across different Federal agencies.
    Right now, like a lot of things in Federal Government, it 
is very decentralized. People are doing their own thing, and 
there is really not a lot of lessons learned out of it yet. 
That is what we are suggesting is that the agencies evaluate 
how well it is working and how well it is meeting the needs 
that they anticipate in the future.
    Right now, it is not very systematic, and we are concerned 
that the Federal Government is continuing to provide billions 
of dollars and not knowing if it is really accomplishing what 
it need it to accomplish.
    Senator Sinema. Thank you.
    Mr. Dodaro. Yes.
    Senator Sinema. Mr. Chairman, I yield back. Thank you.
    Senator Paul. Thank you. Senator Lankford.
    Senator Lankford. Thank you.
    I want to follow up on a couple of things that you had 
already mentioned before, and I have a new question and a new 
issue. I want to talk first about the student loan program, and 
if I could have your highly skilled professional step back in 
again.
    I am on the same stream of heartlessness here, so not only 
for SNAP issues, but also student loan issues you are taking a 
look at. I need to clarify a statement that you made earlier. 
Did you say 260 schools could face default because they are 
currently using this forbearance program now, that if we 
evaluate it, they may be at risk?
    Ms. Emrey-Arras. Over 260 additional schools could be at 
risk of losing access to Federal student aid because of the 
level of their default rates if you take out the forbearance.
    Senator Lankford. How many schools do you think are using 
this program? They are hiring people to get their students into 
forbearance, not for the benefit of their former students, but 
for the benefit of the school to kind of cover up what is 
happening.
    Ms. Emrey-Arras. We found about 800 schools were using 
consultants that encouraged forbearance (5 of the 9 consultants 
we examined).
    Senator Lankford. Specifically for this forbearance-type 
program?
    Ms. Emrey-Arras. Some of them were providing accurate 
information, but others were not. In some cases, the 
consultants were lying to borrowers and telling them that they 
could lose access to SNAP benefits if they defaulted on their 
student loans as a way to pressure them into choosing 
forbearance.
    In other cases, there was pressure. There was not outright 
lying, but definite pressure to go into forbearance. For 
example, some consultants only gave borrowers forbearance 
applications in the mail unsolicited, ``Here you go,'' so that 
they could avoid default and help the schools out.
    Senator Lankford. Were they doing that past 3 years or only 
for those folks that are in the 3-year time period?
    Ms. Emrey-Arras. We found that eight of the nine 
consultants that we looked at were only paid for this service 
during the 3-year period.
    Senator Lankford. OK. Once it got past that 3 years, ``You 
are on your own. We are not going to help you even with a 
forbearance request?'' This is really to the benefit of the 
school?
    Ms. Emrey-Arras. That was our understanding.
    Senator Lankford. Did you see a type of school, for-profit, 
nonprofit, 4-year? Did you see any kind of direction or 
consistency in type of school?
    Ms. Emrey-Arras. We did not do that kind of sub-level 
analysis in our report, but I can tell you that it was in more 
than one sector.
    Senator Lankford. OK. Obviously, it is an area that needs 
to be addressed. We have a higher education bill that we are 
hoping to be able to do later on this year. The goal was to be 
able to help students actually land on a job, not to be able to 
protect schools and to hide debt costs. If this is actually 
implemented, then you are talking 1.4-or $1.5 trillion in total 
student debt that is out there. What do you think the effect 
is, best guess, on what happens on student debt and default 
rates?
    Ms. Emrey-Arras. Our hope would be that it would lower 
default rates and that it would also hold schools, accountable 
and that schools that should not be receiving Federal student 
aid would not be in the future.
    Senator Lankford. Other ideas that came out of this that 
you saw that may or may not be listed in the recommendations?
    Ms. Emrey-Arras. We did have a separate matter. It is 
pretty basic, basically to require that any school or 
consultant that chooses to contact borrowers to talk about 
repayment options provide them accurate and complete 
information, in other words that they not lie and provide only 
one option.
    Senator Lankford. Right. We have other areas for anyone who 
does financial advice, fiduciary responsibilities to that 
individual. They have to make it clear who they are working for 
and to be able to make sure they are working for the benefit of 
that individual they are contacting.
    I appreciate very much your work and your insight on that.
    Can I shift subjects to talk about inland waterways? You 
had some recommendations specifically dealing with inland 
waterways and the way the Corps of Engineers does contracting. 
They do an incremental approach, a little bit at a time, that 
may stretch out for years and year and years and years, rather 
than fully funding and then putting the contract out and 
finishing it out. What did you find?
    Mr. Dodaro. What we found is it would add years, in some 
cases, up to 10 years or more for these projects to be 
completed over time. In other words, they were putting more 
things in the pipeline than they could fund in a reasonable 
period of time and at a good cost over time. It was costing 
more money, and it was taking much longer. We said either you 
need to put fewer projects in there, or you need to come up 
with other ways to enhance revenues.
    Not everybody pays the fee, the tax to use the waterway. 
That is one option they should look at.
    What the fee is itself is another option, and what are the 
needs over a period of time, and what is a reasonable way to 
get there?
    Right now, it is not reasonable to do this. It frustrates 
people because it takes too long, but what it does, it sort of 
allows them to say we are doing more projects right now to 
satisfy more people. It is only a temporary situation, and the 
projects are not finished.
    Senator Lankford. I have had this conversation with some of 
the Corps leadership before for years because they seem to say 
we are doing projects in every congressional district in 
America, just so they can say they are doing a project in some 
place.
    Mr. Dodaro. Right.
    Senator Lankford. If that project takes two decades to 
complete, it is actually increasing frustration. I would rather 
be able to see that project is scheduled to start at this time 
and stop construction at this time and be complete rather than 
we are making, ``progress.'' Is there any way to be able to 
ballpark what the wasted dollars are by doing this little 
incremental approach saying we are doing a little bit 
everywhere, but hardly completing anything anywhere?
    Mr. Dodaro. There are millions of dollars that could be 
saved on this. I do not have an estimate. I will go back and 
take a look at it, but it is not a good way to do business.\1\
---------------------------------------------------------------------------
    \1\ Supplemental information GAO provided for the record. The Army 
Corps has done some analysis related to inefficient contracting. For 
example, in 2017, presentations given by the Corps of Engineers to 
members of the Inland Waterways User Board stated that the Corps 
expected that the Kentucky Lock Addition project would require at least 
$229 million more (about 19 percent above the original estimated cost) 
as a direct result of inefficient contracting and be completed 17 years 
later than planned. Similarly, the Corps estimated that Chickamauga 
Lock project will need at least $170 million more (about 24 percent 
above the original estimated costs) due to inefficient contracting and 
be completed at least 13 years later than planned. These estimates, 
developed by the Corp, provide some sense of the overall costs 
associated with inefficient contracting. While each project is highly 
unique, these analyses suggest that cost overruns on these and other 
projects could be tens of millions of dollars each year. We would be 
happy to work with your staff to the extent you would like to request a 
more comprehensive review of the Army Corps' management of inland 
waterway projects and contracts.
---------------------------------------------------------------------------
    Senator Lankford. No, it is not.
    Mr. Chairman, thank you for having this hearing and for 
bringing this backup again.
    Senator Paul. Thank you.
    Thank you to the panel. Thank you to GAO and Mr. Dodaro for 
testifying today.
    The hearing is adjourned.
    [Whereupon, at 10:41 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
